Report on Agreed-Upon Procedures at the
             Inter-American Foundation

              Report No. 0-IAF-01-013-F

                      September 28, 2001




       Washington, D.C.
U.S. Agency for

 International

 Development


Financial Audits Division


MEMORANDUM

FOR:                   Mr. David Valenzuela

FROM:                  IG/A/FA, Alvin Brown

SUBJECT:               Final Report on Agreed-Upon Procedures Performed at the
                       Inter-American Foundation (Report No. 0-IAF-01-013-F)

The attached report summarizes the results of agreed-upon procedures performed at
the Inter-American Foundation by the firm of Gardiner, Kamya & Associates
(GKA). Through the work performed under contract by Gardiner, Kamya &
Associates, we have determined that the Inter-American Foundation has made
significant progress toward the resolution of findings reported in its fiscal year 2000
financial statement audit report. No recommendations were made in this report.

The report prepared by the firm of Gardiner, Kamya & Associates is included in its
entirety in Appendix I. Your comments from the draft report have been
incorporated into this final report, and are included in Appendix II.

We appreciate the cooperation and courtesies that your staff extended to my staff,
and to the staff of Gardiner, Kamya & Associates during the agreed-upon
procedures. If you have questions concerning this report, please contact Andrew
Katsaros at (202) 712-4902.

Attachment (as stated)




                                                                                      1
Table of
Contents   Management Comments and Our Evaluation                3

           Appendix I - Gardiner, Kamya & Associates Report on
            Agreed-Upon Procedures                               4

           Appendix II - Management Comments                     13




                                                                      2
Management       Although the Report on Agreed-Upon Procedures prepared by
C o m m ents &   Gardiner, Kamya & Associates did not contain any findings or
Our Evaluation   recommendations, IAF management provided comments to the
                 draft report and was largely pleased with the results. Through the
                 performance of agreed-upon procedures, the firm of Gardiner,
                 Kamya & Associates determined that the Inter-American
                 Foundation has taken significant corrective action to address
                 findings reported in its fiscal year 2000 financial statement audit.

                 IAF management expressed concerns with the presentation or
                 implication of several statements in the draft report. This final
                 report has been modified in consideration of several of these
                 concerns which both IAF and OIG management considered to be
                 minor.




                                                                                     3
                                                                Appendix I

                                                                Page 1 of 9


G

K

A

            UNITED STATES AGENCY
      FOR INTERNATIONAL DEVELOPMENT


           INDPENDENT ACCOUNTANT’S REPORT


                               ON


          APPLYING AGREED-UPON PROCEDURES


                   Review of Corrective Action

                        Implemented By


              INTER AMERICAN FOUNDATION


                          Submitted By:


               Gardiner, Kamya & Associates, P.C.

                      1717 K Street, N.W.

                     Washington, DC 20036





     Gardiner, Kamya & Associates, P.C.
     Management Consultants and Certified Public Accountants

                      Washington, D.C.





                                                                   4

                                                                                       Appendix I

                                                                                       Page 2 of 9


    Independent Auditor’s Report on Applying Agreed-Upon Procedures


The Inspector General
United States Agency for International
Development
1300 Pennsylvania Avenue,
Washington, D.C. 20523


We have performed the procedures described below, which were agreed to by the Office
of the Inspector General (OIG), United States Agency for International Development
(USAID), solely to assist you in ascertaining the status of the corrective actions taken to
date by Inter-American Foundation (IAF) in response to the recommendations made by
the OIG to alleviate the conditions reported by the independent auditor of IAF’s fiscal
year (FY) 2000 financial statements.

Our Objectives were to:

•	 determine if IAF has developed a Corrective Action Plan to address the deficiencies
   noted by the OIG in the audit of IAF’s FY 2000 financial statements;

•	 determine if IAF has implemented corrective actions;

•	 evaluate the corrective actions taken so far and assess the results; and

•	 determine the expected completion date of the implementation of corrective actions.

This engagement to apply agreed-upon-procedures was performed in accordance with
the standards established by the American Institute of Certified Public Accountants. The
sufficiency of the procedures is solely the responsibility of the OIG. Consequently, we
make no representation regarding the sufficiency of the procedures described below
either for the purpose for which this report has been requested or for any other purpose.




                                                                                         5

                                                                                        Appendix I

                                                                                        Page 3 of 9


               Details of Procedures Performed and Findings

Corrective Action Plan

To determine whether IAF had addressed the issues raised by the OIG and the
Independent Auditor in the FY 2000 financial statement audit, we interviewed
responsible IAF officials and requested a copy of any corrective action plan that may
have been developed in response to the audit. We also inquired into actions taken
regarding the specific findings as noted below. IAF was not required to prepare a formal
corrective actio n plan, but did take sufficient corrective action to address prior findings
and recommendations reported by the OIG.

We found that:

•	 It is IAF’s understanding that they have a period of one year after reaching an
   agreement with the OIG regarding the audit findings to implement corrective
   actions; and

•	 Ten months prior to the issuance of the OIG Report on IAF’s FY 2000 Financial
   Statements, IAF outsourced its accounting, reporting and procurement functions to
   the Bureau of Public Debt, Administrative Resource Center in Parkersburg, West
   Virginia. This contributed to the improvements noted herein.

Prior OIG Finding No. 1: IAF did not prepare complete, reliable, and timely financial
statements that were based on its general ledger.

GKA’s Review Procedures:

•	 Inquired into and documented actions taken to ensure that a balanced general ledger
   is maintained;

•	 Inquired into and documented actions taken to ensure that all transactions are
   properly supported and documented;

•	 Inquired into and documented actions taken to ensure that financial statements are
   submitted within 45 – 60 days after the end of the fiscal year;

•	 Reviewed the Memorandum of Understanding between IAF and the Administrative
   Resource Center to determine whether it provides for corrective actions as
   recommended by the OIG in its audit report of IAF’s FY 2000 financial statements;
   and

•	 Visited the Administrative Resource Center’s facility in Parkersburg, West Virginia,
   interviewed responsible personnel and reviewed their accounting policies and
   procedures as they relate to IAF.



                                                                                          6

                                                                                  Appendix I

                                                                                  Page 4 of 9



GKA’s Findings:

•	 IAF has entered into a contract with the Administrative Resource Center to provide
   procurement and accounting and reporting services. In addition, the Memorandum
   of Understanding provides for the production of accounting reports, including the
   general ledger, within 3 days after the close of the accounting period, except at
   yearend, when multiple closings of the general ledger are required;

•	 The contract provides for an unqualified audit opinion on financial statements and
   notes;

•	 There is currently a balanced cumulative general ledger for FY 2001;

•	 The Administrative Resource Center has scheduled the production of auditable year
   end financial statements for FY 2001 for IAF no later than December 31, 2001;

•	 In the effort to produce auditable financial statements for FY 2001, the
   Administrative Resource Center has undertaken three tasks to ensure that IAF’s
   beginning balances are supported by the necessary documents and posted to the
   correct general ledger accounts. Two of these tasks (Tasks (i) and (ii) below) were
   not completed as of July 9, 2001. They were expected to be completed by August
   31, 2001.

   (i)	     Review of FY 1996 to FY 2000 obligations – Per the Administrative
            Resource Center, a listing of obligatio ns for the period was given to IAF
            personnel for further research to determine if the obligated funds should be
            deobligated. Once the information is received, the beginning general ledger
            balance will be adjusted accordingly.

   (ii)	    Review of September 30, 2000 Fund Balance reconciliation items – A
            detailed listing of September 30, 2000 reconciling items is currently being
            prepared by the Administrative Resource Center and will be sent to IAF for
            further research.     Once the necessary information is received, the
            Administrative Resource Center will make the appropriate adjustments to the
            beginning balance of the general ledger.

   (iii)	   The Administrative Resource Center has not recorded the amounts, which
            were on IAF’s general ledger as of September 30, 2000. Instead, it reviewed
            each balance, examined supporting documentation for each account, and
            recorded only those amounts that were supported. It has documented in a
            spreadsheet, the amounts recorded by the Administrative Resource Center,
            the amounts recorded by IAF, and the differences. The differences were
            posted to general ledger account numbers 3100, 3310, 4610, or 4650 for
            further investigation.




                                                                                      7

                                                                                  Appendix I
                                                                                  Page 5 of 9

    • The Administrative Resource Center is awaiting IAF’s approval of its
   methodology for recording and amortizing grant advances or to develop other
   procedures that comply with established accounting standards; and

Prior OIG Finding No. 2: IAF did not provide Management’s Discussion and Analysis
(MD&A) which describes the activities and achievements of the organization for FY
2000.

GKA’s Review Procedures:

•	 Requested IAF’s plan to provide MD&A in FY 2001; and

•	 Inquired if IAF has commenced the writing of an MD&A, and requested a copy of
   the draft document if one exists.

GKA’s Findings:

•	 IAF legal counsel is in the process of writing the MD&A. The document is not yet
   finalized. However, IAF provided GKA with a copy of the draft document that
   appears to address the relevant issues.

Prior OIG Finding No. 3: IAF did not fully comply with the Prompt Payment Act.
Several instances of late payment of invoices and non-payment of the associated interest
penalty were noted.

GKA’s Review Procedures:

•	 Requested IAF’s plan to comply with the Prompt Payment Act (the Act); and

•	 Selected a random sample of disbursements for the period October 1, 2000 to
   May 15, 2001 and reviewed for compliance with the Prompt Payment Act.

GKA’s Findings:

•	 Procurement and disbursement functions were outsourced to the Administrative
   Resource Center as of October 1, 2000. From a review of the Memorandum of
   Understanding between IAF and the Administrative Resource Center, and interviews
   with various IAF and Administrative Resource Center personnel, it appears that
   there are policies and procedures in place to ensure compliance with the Prompt
   Payment Act; and

•	 Sixty (60) disbursements (made between October 1, 2000 and June 15, 2001) were
   randomly selected and tested for compliance with the Act. Only one deviation was
   noted.




                                                                                      8

                                                                                    Appendix I

                                                                                    Page 6 of 9


     Prior OIG Finding No. 4: IAF expensed $1,671,533 in FY 2000, although
practically no services were rendered to IAF or contracted for by IAF.

GKA’s Review Procedure:

•	 Requested an analysis of this transaction and evaluated the propriety of the
   correcting journal entry.

GKA’s Findings:

•	 Of the $1.6 million, $180,000 was recorded as an expenditure for services rendered
   by the Administrative Resource Center in FY 2000;

•	 The remaining $1.4 million was recorded as an advance from IAF to the
   Administrative Resource Center for services to be rendered in FY 2001 and FY
   2002; and

•	 The Administrative Resource Center has recorded this transaction under two
   different appropriations through a general ledger entry debiting an advance (asset)
   account and crediting an unexpended appropriation, on the proprietary side, and by
   debiting downward adjustment of a prior period expenditure and crediting
   unexpended obligations – unpaid, on the budgetary side.

Prior OIG Finding No. 5: The Fund Balance with Treasury account is not regularly
reconciled. Differences are not promptly investigated and resolved.

GKA’s Review Procedures:

•	 Obtained and reviewed all reconciliations from October, 2000 to May, 2001;

•	 Determined if the services contract with the Administrative Resource Center
   eliminates the segregation of duties weakness noted by the auditors;

•	 Determined the procedures that IAF has implemented to monitor the Administrative
   Resource Center’s recording and reporting of financial information.

GKA’s Findings:

•	 Accounting functions were outsourced to the Administrative Resource Center as of
   October 1, 2000;

•	 The Administrative Resource Center performs the reconciliation monthly, as soon as
   the appropriate Treasury’s reports are available which is around the last week of the
   following month. Normally,

           (i)    they are performed by the end of the following month;



                                                                                      9

                                                                                       Appendix I

                                                                                       Page 7 of 9



             (ii)	      they contain evidence of supervisory review;

             (iii)	     the General Ledger balances are agreed to amounts on Treasury
                        reports; and

             (iv)	      reconciling items are investigated and resolved.

•	 From a review of the Memorandum of Understanding between IAF and the
   Administrative Resource Center, a review of the Administrative Resource Center’s
   policies and procedures noted, and interviews with various IAF and Administrative
   Resource Center personnel, it appears that the Administrative Resource Center’s
   policies and procedures are sufficient to ensure that incompatible functions are
   segregated;

•	 Currently, the Administrative Resource Center’s personnel are working on a project
   to review September 30, 2000 Fund Balance reconciling items. The objective is to
   analyze the items and post appropriate journal entries based on the results of the
   analysis;

•	 From a review of IAF’s accounting policies and procedures (Organization’s
   Handbook – the Red Book), and interviews with IAF personnel, it appears that the
   reconciliations performed by the Administrative Resource Center are not reviewed
   by IAF. IAF relies solely on the Administrative Resource Center to perform this
   function.

Prior OIG Finding No. 6: Supporting documentation is not properly prepared,
maintained, and easily retrievable for review. Specifically:

       A.	           Grant Advances: IAF was unable to prepare a complete, accurate, and
                     reconciled analysis of the grant advances in a timely manner;

       B.	           Grant Receivables: IAF did not provide supporting documentation that
                     substantiated the existence and completeness assertions pertaining to
                     grants receivable; and

       C.	           Accounts Payable: Search for unrecorded liabilities could not be
                     performed because the financial reports of IAF did not contain data that
                     identified the required source documents.

GKA’s Review Procedures:

•	 Requested IAF’s plan to ensure that supporting documentation is maintained and
   easily retrievable for review. Evaluated this plan based on our request for invoices
   and reconciliations;




                                                                                          10

                                                                                         Appendix I

                                                                                         Page 8 of 9


     •     Toured IAF’s office facility and reviewed storage areas and filing systems;

•	 Requested IAF’s plan to:

    (a)	         record grant transactions, periodically monitor amounts recorded and
                 amounts reclassified, and ensure that all grant transactions are adequately
                 supported;

    (b)	         ensure that a current listing of all disbursements is available for review;
                 and
.
    (c)	         communicate differences and discrepancies in the accounting records to
                 senior management.

 GKA’s Findings:

•	 A policy regarding record keeping procedures was recently drafted and will be
   included in the organization’ s handbook;

•	 Documentation supporting transactions is filed and maintained in both IAF’s and the
   Administrative Resource Center’s office facilities and is easily retrievable;

•	 Currently, plans are to prepare a grant disbursement schedule at the end of the year.
   This schedule will analyze the amounts disbursed, expensed, and capitalized. Based
   on this analysis, an appropriate amount will be recorded as an outstanding advance at
   year-end. The Administrative Resource Center will seek IAF’s approval of this
   method before it is implemented;

•	 There is a wide disparity between the FY 2000 financial statements balance and the
   balance recorded on the schedule, ($600,000 per FY 2000 financial statements vs. $6
   million per grant advance schedule). The $600,000 will be expensed and an
   appropriate portion of the $6 million capitalized after further investigation and
   analysis;

•	 Approximately $2 million of the $2.7 million shown as accounts receivable in the
   FY 2000 financial statements is due from the Social Progress Trust Fund (SPTF).
   The remaining $600,000 is the unexpended grant advance. IAF maintains that it has
   support for SPTF balance;

•	 The Administrative Resource Center’s accounts payable policies and procedures
   appear to be appropriate and its year-end cutoff procedures memorandum for FY
   2001 is designed to capture year-end liabilities information. The Administrative
   Resource Center will distribute the FY 2001 year-end cutoff memorandum to all
   clients, including IAF, by the end of August, 2001; and




                                                                                         11

                                                                                    Appendix I

                                                                                    Page 9 of 9


    • IAF has designated a fiscal specialist to monitor the Administrative Resource
   Center’s accounting. However, due to other work pressure, monitoring the accuracy
   and completeness of Administrative Resource Center-produced accounting records is
   not yet being performed on a regular basis by IAF.

                             ======================

We were not engaged to, and did not perform an audit, the objective of which would be
the expression of an opinion on the specified elements, accounts, or items. Accordingly,
we do not express such an opinion. Had we performed additional procedures, other
matters might have come to our attention that would have been reported to you.

This report is intended solely for the use of USAID OIG and IAF management, and
should not be used by those who have not agreed to the procedures and taken
responsibility for the sufficiency of the procedures for their purposes.




Washington, D.C.
July 9, 2001




                                                                                     12

                                                                                              Appendix II

                                                                                              Page 1 of 2




                             Inter-American Foundation
Management
Comments
                                                       An Independent Agency of the U.S. Government



                                                    August 16, 2001

       Mr. Everett Mosley

       Inspector General

       U.S. Agency for International Development
        1300 Pennsylvania Avenue, N.W.

       Washington, D.C. 20523



              Subject:	      Draft Independent Auditor’s Report
                             (undated) transmitted August 7, 2001

       Dear Mr. Mosley

              The Inter-American Foundation (the “Foundation”) is pleased to note that the
       agreed upon procedures (the “Draft Report”) undertaken by Gardiner, Kamya &
       Associates (“Gardiner”) reveal that the Foundation has addressed all issues identified in
       the April 2, 2001 Report of Audit (the “Report of Audit”) issued by your office.

              We were disappointed to note, however, the Draft Report’s implication that the
       Foundation was required to prepare a Corrective Action Plan (“CAP”) before Gardiner
       began its work.

               First, the Inspector General Act, as amended, and OMB Circulars A-50 and
       A-123, provide, in sum, that management must make a decision regarding Office of
       Inspector General audit recommendations within a six- month period and that
       implementation of management’s decision should be completed within one year to the
       extent practicable. Yet the Gardiner exercise was initiated only two months following
       the Report of Audit—four months before the CAP was due.

               Second, and perhaps more troubling, the Draft Report refers to the Foundation’s
       lack of a written CAP. We had expressed concern that notwithstanding steps we had
       taken to implement the recommendations, your report would still begin by saying: “The
       Foundation does not have a written CAP.” On June 6, 2001, you and your staff assured
       us that would not happen. You stated, “We are interested in substance over form.” Our
       external affairs director repeated that exchange in meetings on, respectively, June 7,
       2001

       _______________________________________________________________________

       901 N. Stuart Street � Arlington, Virginia 22203 � Phone: 703-306-4301� TDD: 703-306-5488



                                                                                                13

                                                                                                  Appendix II

                                                                                                  Page 2 of 2

Management
Comments

        and July 19, 2001, at which Gardiner personnel were present. In both instances, your
        Director of Financial Audits confirmed that no written CAP was being sought.

               Accordingly, we request that you follow through on your assurances to us by
        asking Gardiner the reference in the Draft Report or by emphasizing in your
        accompanying report that the Foundation’s substantive progress has been significant,
        and that a written CAP is not due until October 2, 2001.

                We would also like to make three additional comments on the Draft Report. The
        statement that the Foundation has taken corrective action by outsourcing to the Bureau
        of the Public Debt (BPD) the accounting, reporting, and the procurement functions is
        incorrect. The reason for outsourcing these functions was to reduce the Foundation’s
        overhead costs. Moreover, the outsourcing was implemented before the Report of Audit
        was initiated; hence it could not have been in response to it.

               Gardiner’s finding of one deviation in the analysis of sixty (60) disbursements is
        based on a $1.98 in interest due but not paid. Gardiner could not confirm that this
        information was given to anyone at the Foundation—despite frequent requests for such
        items. In fact, we learned of it today.

               Gardiner’s finding that cash reconciliations performed by BPD are not reviewed
        by the Foundation is misleading. BPD has informed us that virtually no customers
        review BPD’s monthly cash reconciliatons. Yet the Draft Report implies that this is
        imprudent.

               Notwithstanding these relatively minor issues, on the whole we are satisfied with
        the Draft Report and trust that it will allay any concerns that were raised in the Report of
        Audit.

                                                      Sincerely yours,

                                                      /s/ Carolyn Karr (acting)

                                                      David Valenzuela
                                                      President

        cc: The Board of Directors




                                                                                                 14

